GR-80-97-019
U.S. Department of Justice
 
Audit Report
 
OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
AWARDED TO THE CITY OF HOUSTON, TEXAS
Award Nos. 95-TC-WX-1233, 95-CC-WX-0129, 95-CL-WX-0117, and
95-CL-WX-0117 Renewal
GR-80-97-019
September 30, 1997
 

AUDIT RESULTS
 
The Office of the Inspector General, Audit Division, completed an audit of grants
awarded by the U.S. Department of Justice, Office of Community Oriented Policing
Services (COPS), to the City of Houston, Texas, Police Department (HPD). The HPD
received a grant of $9,225,000 to hire or rehire 123 police officers under the Accelerated
Hiring, Education, and Deployment (AHEAD) program; a grant of $5,435,391 to redeploy 363
police officers under the Making Officer Redeployment Effective (MORE) program; a RENEWAL
grant of $4,700,000 for the COPS MORE program to redeploy 189 police officers for a second
year; and a grant (TROOPS TO COPS) of $180,000 for training costs for 36 military veterans
to be hired under the Phase I or AHEAD programs. The purpose of the grants was to enhance
community policing efforts.
Generally, the HPD properly accounted for the funds received from the COPS grants.
Budgeted funds for police services and the number of police officers budgeted generally
increased each year since FY 1994, 2 years before the beginning of the COPS AHEAD, COPS
MORE, and COPS MORE RENEWAL grants. 
We found the following conditions during our audit: 


- The HPD did not provide supporting documentation for the redeployment of full-time
    equivalents using the equipment and technology award included in the COPS MORE award. As a
    result, claimed costs of $732,266 were unsupported.
- Disbursements of $150,000 for the TROOPS TO COPS program were questioned because the
    HPD did not hire military veterans under the Phase I or AHEAD grants as required. 
- Ineligible police officers' salaries were charged to the COPS AHEAD grant.
    Accordingly, we questioned salaries of $862.
- One portion of the Department Initial Report was not accurate for the COPS AHEAD
    grant.
- The Financial Status Reports for the start-up periods of each of the grants were not
    submitted to the Office of Justice Programs (OJP).


 
#####